<html>
<title> - TOLEDO BEND</title>
<body><pre>[Senate Hearing 113-292]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-292

                              TOLEDO BEND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   TO

   DEVELOP IDEAS REGARDING STEPS THE FEDERAL GOVERNMENT CAN TAKE TO 
INCREASE THE ECONOMIC BENEFITS OF THE TOLEDO BEND PROJECT TO THE REGION

                               __________

                         MANY, LA, MAY 17, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ________


                         U.S. GOVERNMENT PRINTING OFFICE 

88-122 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Curtis-Sparks, Linda, Director, Sabine Parish Tourism Commission.    14
Freeman, Kenneth A., Mayor, Town of Many, LA.....................    17
Goodeaux, Ned, Chairman, Board of Commissioners, River Authority, 
  State of Louisiana.............................................     1
Landrieu, Hon. Mary, U.S. Senator From Louisiana.................     1
Long, Gerald, Louisiana State Senator, District 31...............     6
Pratt, Jim, Executive Director, Sabine River Authority, State of 
  Louisiana......................................................     7
Ruffin, William, President, Sabine Parish Police Jury............    18
Sabine River Authority of Texas..................................    26
Williams, Bobby..................................................    29

 
                              TOLEDO BEND

                              ----------                              


                         SATURDAY, MAY 17, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                          Many, LA.
    The committee met, pursuant to notice, at 10:30 a.m. at the 
Cypress Bend Conference Center, Many, Louisiana, Hon. Mary 
Landrieu, chair, presiding.

  OPENING STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM 
                           LOUISIANA

    The Chair. Welcome this morning to the Senate Committee of 
Energy and Natural Resources.
    We're going to begin by just introducing Ned Goodeaux, who 
is going to introduce his Board members and a few dignitaries 
in the audience.
    Then I will do an opening statement and we'll hear from our 
panelists on this important subject.
    But first, let me just say how wonderful it is to be here 
in Sabine Parish, to be back here at Cypress Bend. I've had the 
pleasure of coming many times. It's wonderful when I actually 
get to spend not one, but two nights. So I was here last night, 
will be staying again.
    So thank you all for your hospitality. It really is one of 
the most extraordinary and beautiful places in all of our State 
and really in the whole southern region of the United States. 
So I thank everyone for joining us for this important 
discussion.
    So, Ned, let me turn it over to you. If you'll just use 
Senator Long's microphone and introduce your Commissioners and 
thank you so much for your leadership and anybody else you want 
to introduce in the audience.

 STATEMENT OF NED GOODEAUX, CHAIRMAN, BOARD OF COMMISSIONERS, 
              RIVER AUTHORITY, STATE OF LOUISIANA

    Mr. Goodeaux. Thank you, Senator.
    Let me say first how really great it is to have you back in 
the Parish, to have you come by and look at our facilities. 
We'd just like you to make more trips, if at all possible 
sometimes. You know, if you can get out of Washington, get down 
here and have some fun.
    [Laughter.]
    The Chair. Hooray for that. Yes.
    [Laughter.]
    Mr. Goodeaux. My name is Ned Goodeaux. I am the Chairman of 
the Board of Commissioners for the River Authority, State of 
Louisiana. I represent Sabine Parish.
    I have several of the board members, out of the 13 board 
members from the State, up and down the waterway here of the 
Sabine River.
    From Sabine Parish, I have Mr. Ron Williams.
    From Sabine Parish, I have Mr. Bobby Williams.
    From Beauregard Parish, Mrs. Dale Scott.
    The Chair. Would you all stand up and just stay standing, 
please?
    Alright.
    Mr. Goodeaux. Those are the only board members out of the 
13 that was able to be here this morning.
    [Applause.]
    Mr. Goodeaux. Thank you guys for coming.
    [Applause.]
    Mr. Goodeaux. Also, Ms. Scott was 30 years as a City 
Councilwoman in DeRidder just south and her niece, Ms. Kim 
Moore is the newly elected City Councilwoman from down in that 
area.
    The Chair. Please stand so we can give you a round of 
applause.
    Thank you all.
    [Applause.]
    Mr. Goodeaux. Thank you all for coming.
    [Applause.]
    Mr. Goodeaux. One last that probably for the River 
Authority that has to carry the biggest stick is always his 
phone ringing from the staff of Sabine River Authority, Mr. 
Carl Chance over our Shoreline Management Department.
    Thank you.
    The Chair. Thank you, Carl.
    [Applause.]
    Mr. Goodeaux. That, Senator, is our River Authority 
personnel that are here today.
    Thank you again.
    The Chair. Thank you very much, Ned, so appreciate it.
    Let me just begin by giving a short opening statement and 
set the stage for why we're here this morning and the 
significance of this meeting. I hope to have several additional 
informal meetings as this project unfolds.
    But as you all know, I don't have to share with the local 
community here, that Toledo Bend has driven significant 
economic development including recreation, ecotourism, just the 
beautiful landscape of the water and has driven development in 
this area including hydropower since the early mid 1960s. The 
reservoir filled up in 1968. Plans for it were laid prior to 
that. Today in 2014, we're here to talk about the future.
    Today we look ahead to the next 50 years and how we can 
responsibly leverage the area's hydro energy assets and obvious 
and abundant natural resources, which is visible to the eye and 
to a small child as well as to an adult, how we can create more 
high paying jobs and spur commerce and recreation in this area. 
Toledo Bend has huge potential, economic potential. I'm 
committed to getting to the Federal status and local plans to 
unleash this potential.
    You all know that the Toledo Bend Reservoir is over 80 
miles long. It has more than 1,200 miles of shoreline which is 
both sides. That's about the same distance, if stretched out, 
between Louisiana and Washington, DC. That is quite an enormous 
length of property.
    It's the largest manmade body of water in the South, the 
largest. It's the fifth largest in the United States not owned 
by the Federal Government. In terms of surface area and 
storage, it's the largest reservoir in the country not owned by 
the Federal Government. So it's truly a treasure and an 
extraordinary asset for our part of the world.
    Despite its extraordinary size and beauty it might be one 
of the least well known large reservoirs in the United States. 
This hidden gem and treasure can and should be enjoyed, not 
only by our communities nestled in close proximity, like Many, 
Zwolle, Logansport and so many others, but by people all across 
the region and Nation. In fact today there are over 2,000 
anglers fishing in some of the best bass waters in the world.
    Toledo Bend's primary purpose, of course initially, was to 
unleash hydropower for the region and that still is a very 
important part of what Toledo Bend's mission is. As you know, 
when it was developed each State, the states that border this 
Toledo Bend, Texas and Louisiana, made a decision and an 
agreement that each would get half of the water generated. It's 
about 1.87 billion gallons of water per day the reservoir 
delivers for use by families, businesses and farms in two 
States.
    The economic value of this water supply cannot be 
overstated. The availability of fresh water from the reservoir 
is one of the main reasons why Sasol chose West Lake as a site 
for a new massive gas to liquids manufacturing facility that 
will create in Louisiana twelve hundred permanent, high paying 
jobs in the area south of us around Lake Charles and 5,000 
construction jobs.
    Now these construction jobs might be temporary, but let me 
add that with the effort that I'm making with our State leaders 
and Senator Long knows most certainly about our push for 
closing the skills gap in Louisiana, that while some of these 
construction jobs are temporary the skills that people are able 
to, with our partnership with Federal, State and local 
government and the private sector, are permanent. The skills 
that people are able to achieve for themselves will permanently 
stay with them and be able to, over long periods of time, 
sustain and grow and develop the economic power of their 
families and their communities. So this should not be 
underestimated.
    One clear example of how Toledo Bend creates wealth for 
communities around it. That's just one example. But you can 
look here and see the recreational benefits, clearly, which are 
also equally important.
    The dam at Toledo Bend generates 81 million watts of 
hydroelectricity which is enough to power 16,000 homes in 
Louisiana on a yearly basis. Two companies on either side of 
the line, Entergy and Cleco, buy the power the dam produces 
under a long term contract that expires in 2018, just 4 years 
away. This is a clean and affordable hydropower that 
diversifies electricity supply in Louisiana as part of the all 
or the above energy policy that I support and champion in 
Washington as the new Chair of the Energy and Natural Resources 
Committee.
    I am committed as Chair of this committee to keep Louisiana 
in the driver's seat to redesign the next big pillars of energy 
policy for our Nation for the next 20, 30 and 40 years. It's a 
gavel we don't often get. I've got it now. It's really 
important for me to be able to wield it on behalf of 
communities like this and communities all over our State and 
Nation.
    I most strongly believe that America can be an energy 
superpower. We can create more energy resources here at home 
using all the above, hydro, nuclear, gas, oil, alternative, 
biofuels, etcetera and be an exporter of electricity, power and 
energy to our allies and friends around the world to push out 
and to have even greater influence in the geopolitics of our 
Nation and world. You only have to look at what's happening in 
the Ukraine today and the thumb that they're under from Russia 
to understand the power of when a country can be, like the 
United States, self sufficient in its own energy and not have 
to rely on an unfriendly neighbor, particularly one that does 
not share democratic values.
    So we come back here to Toledo Bend. It's one of the best 
places in the United States for bass fishing, one of the top 
spots for tournaments in the country. As I said, the Big Bass 
Splash is taking place as we speak.
    Fishing tournaments and recreational fisherman have been 
important drivers of economic growth in this region. They will 
continue to do so. Hundreds of hotel rooms including the resort 
that we're in today, RV parks and other facilities generate 
over 38 million in economic activity for our State each year.
    I'd like to commend all the people in this room and this 
witness table for all the efforts that you've made over the 
last several decades to make this happen. I'm here today to 
tell you that I want to work more closely with you as we 
develop what the next 30, 40 and 50 years looks like for this 
community and for our State.
    Because it generates and sells electricity to utilities, 
Toledo Bend falls under the jurisdiction of the Federal Energy 
Regulatory Commission, called the FERC. I am committed to make 
sure that this regulation, which is necessary, does not stymie 
this area from developing its full potential. FERC, under my 
jurisdiction in the Energy Committee, is in the process or 
under the jurisdiction of the committee that I Chair, is in the 
process of issuing a new license to Toledo Bend. They've been 
in the process of asking for a license.
    The initial 50-year license expired in 2013. So we've been 
operating on a temporary license ever since. FERC is in the 
process of deciding whether that permit should be extended for 
30 years, 40 years or 50 years. We're asking for 50 years. 
We're going to lay down some testimony in the congressional 
record today as to why that would be important.
    The two River Authorities have done a great job of keeping 
the FERC relicensing process from spinning out of control and 
compromising the current benefits of Toledo Bend which I have 
heretofore mentioned. These fights can be messy. There's 
sometimes too many stories about hydropower relicensing across 
the country, cannot be, you know, compromised between all of 
these interests. I hope that this will help us to keep working 
in the cooperative way that we are.
    The relicensing process takes too long and it's too costly. 
Toledo Bend is currently waiting for a new license. I'm been 
pushing FERC, as I said, to get this done.
    On February 5th of this year I wrote a letter to FERC 
calling on them to issue Toledo Bend a new 50-year license, the 
longest term possible under Federal law. The law does not have 
to be changed for this 50-year license to be issued.
    It is within their jurisdiction. We've laid out several 
important arguments why we think a 50-year license will save 
local communities money. It will help generate some additional 
revenues that can be used for the benefit of all concerned.
    I expect that FERC will issue a 50-year license for Toledo 
Bend this summer as I and others have requested. Frankly if 
they're not leaning forward, I'm going to be using my power as 
the Chair to pass legislation. It would be much easier for them 
to do this administratively. I most certainly appreciate their 
consideration of all the arguments that we've laid out.
    So before I turn this over to our panel of witnesses I want 
to express my strong support and recognize this reservoir as 
the extraordinary economic engine it has been and can continue 
to be for this region. We need to relicense this project for 50 
years. We need more resources for infrastructure to make Toledo 
Bend as accessible as possible for the public, to the private 
landowners, for new investments and for mostly, creating 
wonderful jobs, high paying jobs, for every single person to 
have access to those jobs in our community.
    So I thank you all very much. I want to recognize our 
panel. We're going to have a great panel this morning. I've 
asked each of them to give 4 or 5 minutes of testimony then 
we'll have a round of questioning.
    I'd first like to welcome Senator Gerald Long, who has been 
a long standing friend and wonderful ally. He's represented 
Louisiana's District 31 which includes Natchitoches, Winn, 
Grant and Sabine Parishes since 2007. He currently serves as 
Chair of Louisiana's Senate Natural Resources Committee and is 
a strong and recognized voice in all issues related to what 
we're discussing today.
    Senator Long, thank you for being here.
    I'm going to introduce everyone and then we'll come back.
    Next we have Mr. Jim Pratt, the Executive Director of the 
Sabine River Authority of Louisiana. The Sabine Authority has 
joint authority, as I've said, over Toledo Bend along with its 
counterpart in Texas.
    Jim, I think we have 13 commissioners and Texas has nine. 
We look forward to hearing the good work that you're doing and 
how our counterparts in Texas are thinking about some of these 
things as well.
    Next I'd like to welcome Linda, who hosted me the last time 
I was here. Mrs. Curtis-Sparks, thank you very, very much for 
your leadership of the Sabine Parish Tourist Commission and for 
your passion and advocacy for this community. We look forward 
to hearing your perspectives on the existing economic and 
recreational benefits that Toledo Bend has to offer and see 
what more we can do to be of assistance to you.
    We next have Mr. Kenneth Freeman, of course, the Mayor of 
the great town of Many. He's been the Mayor since 1989. He 
serves on the Board of the Sabine River Authority. We thank 
you, Mayor, for being here and for your leadership for these 
many years.
    Finally our last witness, Mr. William Ruffin, President of 
the Police Jury. He'll have some helpful suggestions as to how 
this can benefit the whole region. We thank Sabine Parish 
Police Jury for their strong support. Mr. Ruffin, President 
Ruffin, and for all you've done today.
    So let's begin with Senator Long to just give us 4 or 5 
minutes of opening testimony. Then I've got some questions and 
hopefully we can conclude in about an hour or an hour and a 
half.
    Thank you.

 STATEMENT OF GERALD LONG, LOUISIANA STATE SENATOR, DISTRICT 31

    Mr. Long. Thank you, Senator Landrieu.
    First of all on behalf of all of us from Louisiana we want 
to publicly congratulate you for the Chairmanship that we think 
offers enormous opportunities for our people. So I'm going to 
ask the audience that are here today to extend a personal 
congratulations to Senator Landrieu.
    [Applause.]
    Mr. Long. It's interesting to note that her Chairmanship at 
the national level is exactly my Chairmanship at the State 
level. As a State Senator I've been privileged to have the 
responsibility of being the Chairman of the Senate Natural 
Resources. Now we spent most of our time this year dealing with 
Legacy lawsuits and with levy lawsuits. The real issue though, 
I think, as we look at today is how can we move Toledo Bend 
into a position of prominence as we look at the next 20, 30, 40 
years.
    Let me parenthetically make a statement that I think is 
extremely important. It is this. Toledo Bend knows no political 
parties. We simply know that the needs of our community and the 
needs of our State transcend politics.
    I want to publicly say how appreciative I am that Senator 
Landrieu has brought government to the people and that this 
meeting is being held today at Cypress Bend.
    One of the things I hear, Senator, so much as an elected 
official is that I feel isolated from my government. I believe 
today we actually put hands and feet to what we do as 
legislators.
    Now several things and I know there's many others who would 
like to speak and we'll be as brief as we can. One of the 
things that's extremely important is that we understand, 
collectively, is that Toledo Bend can be the economic engine 
for Northwest Louisiana. We have yet to touch the hem of the 
garment in regards to the potential of Toledo Bend.
    One of the things that we want to do as State officials as 
well as Federal officials is to facilitate opportunities to 
grow Toledo Bend. When you look at travel across the United 
States and you see other recreational facilities such as this, 
unfortunately, as we compare it to Louisiana we find ourselves 
behind the curve when it comes to development and making this 
an economic engine. I do appreciate the fact that we're able to 
attract great opportunities like the Bass Masters and others, 
but if you begin to think outside the box of what Toledo Bend 
can be it can be an economic engine.
    A point and case here is that when we look at the diversion 
canals that are south of us that go into Lake Charles and 
Calcasieu and Cameron Parishes, we already provide for about 21 
industries. Their needs as it pertains to a quality, quantity 
of water. One of the things that attracts people to Louisiana, 
Senator Landrieu, when we think of our economic engine is the 
fact that there is an availability of water which is affordable 
and which is portable meaning it can get from point A to point 
B.
    What we would ask you to do, as our United States Senator, 
is to continue to operate from the perspective of being pro 
business. Give our people an opportunity to grow Louisiana by 
using its natural resources.
    Now, ladies and gentlemen, I've made this statement before. 
Let me make it again. We are one of only 6 states that is water 
independent. The next great economic engine that drives 
Louisiana will be associated directly with how much water we 
have and how we use it.
    I offered 2 years ago a measure which will create a 
comprehensive water management plan for Louisiana. Currently at 
the State government level we have 21 agencies or sub agencies 
that have some type of regulatory control over our water. What 
we want to do is not only to use this great assets of Toledo 
Bend, we want to use the State of Louisiana with our water 
resources to grow our State.
    When you look at St. James parishes and some of the others 
that are attracting the large industries, the No. 1 reason they 
give when they come before my committee is the availability of 
water. Water is driving the economy in Louisiana and 
nationwide. If you doubt that, the State of Texas would love to 
be in the position we're in when it comes to our water.
    Many of the things that hinder other states is the lack of 
water. Senator, we have that availability. We believe Toledo 
Bend is in a prime position to drive our State.
    Again, thank you for your attention.
    The Chair. Thank you so very much, Senator. I really 
appreciate it.
    Mr. Pratt.

   STATEMENT OF JIM PRATT, EXECUTIVE DIRECTOR, SABINE RIVER 
                 AUTHORITY, STATE OF LOUISIANA

    Mr. Pratt. Thank you, Madame.
    I am Jim Pratt. I'm the Executive Director of the Sabine 
River Authority for the State of Louisiana. The Sabine River 
Authority, as been stated earlier, we have 13 members that are 
appointed and serve at the pleasure of the Governor.
    The Sabine River Basin in Louisiana stretches from 
Logansport in Desoto Parish through Sabine, through Vernon, 
Beauregard, Cameron and Calcasieu, all of which have 
representatives on the Sabine River Authority Board of 
Commissioners.
    One of our most significantly visible and responsible 
projects, of course yet is equally been a project. Of course we 
mention operated with the co-licensing of the Federal Energy 
Regulatory Commission, the Sabine River Authority, State of 
Texas.
    Earlier stated about the immense short line and the fact 
that this is the largest water body in the Southern states, 
it's the fifth largest in the United States and unique is is it 
is not owned or operated by the Federal Government although we 
do fall under the Federal Energy Regulatory Commission's 
jurisdiction because we do have a dam hydro facility on a river 
that was formally a navigable waterway of the United States. So 
our relationship with the Federal Government, one that 
fortunately has been, obviously, and will continue in the 
future.
    Primarily it was designed here in West Louisiana and 
Eastern Texas as a water supply. But of course, during the 
1950s and early 1960s when this project was conceived, the 
immense need for water supply was not apparent at the time. So 
the local leadership looked at ways of doing this. It's not a 
Corps of Engineer project because it did not lend the flood 
control for their purposes.
    But the local business leaders and elected officials got 
together, joined in with the power companies that were around 
at the time, and designed this project for two purposes to pay 
for it. That was, of course, hydro electric power would 
initially pay for it knowing that the water supply component 
would eventually be tapped into. But then the local support of 
this project was from the promise of economic development for 
these poor parishes that were along the Western corridor of 
Louisiana.
    It has. Obviously there's much more potential that can be 
reached.
    The generating facility at the dam, it produces those 80 
megawatts or so per hour. It will fund approximately or at 
least power about 16,000 residents. But of course, on one scale 
that's not much.
    But when you look at the fact this is a renewable resource. 
It is green power. We believe that certainly has a placemat in 
our future energy needs. Certainly in all of our efforts for 
renewable resources this one stands alone. It does very well 
there.
    The economic impact that we receive from this project, of 
course, you see it today. We've got one of our largest, non-
professional tournaments that we're hosting this weekend. It's 
the Big Bass Splash. Over 2,000 participants.
    The beauty of this one is couple weeks ago we had the Bass 
Masters elite. Those are professionals, great crowds and a lot 
of media attention. But this one today you have mother/
daughter, father/daughter, grandchildren fishing. It is a 
family event with big rewards.
    That's why it's so exciting for us to see this come here 
because of all things this is a great place to bring your 
family. We have capitalized on that. That's part of the future 
on this.
    This resort that you're at today was a project conceived by 
the Sabine River Authority as an economic development project 
in the early 1990s. The speaker behind me was the Executive 
Director at the time and led the charge to make this happen. 
This has changed the landscape. It bumped the level somewhat. 
But we all know that that was going to be a catalyst to bring 
even more.
    We have two State parks here that are operated by our 
Office of State Parks in addition to the several 
recreationsites that are operated by the Sabine River 
Authority. We believe then though in the coming years, as was 
emphasized by the Senator, that water shortages will continue 
to be apparent. Climate change, one way or the other, is going 
to impact us and just natural outdoor environments are being 
confronted with industrial and residential development.
    So this project becomes more and more valuable to the 
States of Louisiana and Texas for the outdoor experience, but 
also of that genuine asset of high quality, clean, fresh water.
    As we referred earlier to the Federal Energy Regulatory 
Commission and the initial license that was issued in 1963. 
We've operated under that for the first 50 years very 
independent. Of course there were several environmental laws 
and regs that have been adopted since 1963. So one of the 
challenges that we had in going through this relicensing 
process, was showing that we are complying with all of those 
acts and regulations that have been passed.
    I'm happy to report that during this process, jointly with 
the State of Texas, we spent about $11 million. You may ask, 
well what can you show for that?
    We had to do a lot of those studies for, particularly, the 
river downstream of the dam to make sure it wasn't impaired and 
the species that were expected to be there were still in place. 
The good news is, excuse me, they are. We have a very healthy 
environment. We actually have some of the highest quality of 
water of any river flowing into the Gulf of Mexico.
    The process of relicensing though has been an 8-year 
process with us. We developed a scoping document and a pre-
application document that was submitted. We actually chose the 
integrated licensing process which was supposed to be much more 
expedited even than the traditional. But we must say, it has 
still been quite a challenge for us, to say the least.
    There was a lot of settlements. We have several Federal 
entities and State entities that are regulatory in nature that 
participated such as locally we had the Louisiana Wildlife and 
Fisheries, Louisiana Department of Economic Quality, in Texas, 
Texas Parks and Wildlife, Texas Commission on Environmental 
Quality and then the Federal agencies from the U.S. Fish and 
Wildlife Service, National Marine Fishery Service and our 
neighbor next door, of course, is the United States Forest 
Service under the Department of Agriculture. During that we 
addressed the concerns they brought forward which dealt with 
things from public recreation and water supply to the value of 
that hydro power production that we do here on Toledo Bend.
    It came at quite a cost. This process to both authorities, 
again, we are not taxing authorities. We generate our revenues 
here through the sale of hydropower, water and fees that we 
charge on our sites. But jointly we will have spent, at the end 
of the day, about $11 million during this process.
    The capital costs that are going to be associated with 
complying with the new terms are going to cost about $3.6 
million. Our operation maintenance costs on an annual basis 
that, you know, includes the mitigation and protection measures 
that were requested by the Federal agencies and that's another 
3.7.
    Many years ago and really it wasn't many, but within the 
last decade, as residents moved to Toledo Bend and became full 
time residents. Their voices began to be heard. It came very 
apparent that maximizing the power production during the summer 
months which is when the power is most needed, was in conflict 
with our recreation element here.
    As such we made the Louisiana legislature instructed 
through a statute to reduce the amount of water we had 
available through elevation for power production in those 
months. But it did reduce our ability for revenue streams. But 
that being said, when you balance that with the recreational 
and the other economic development components then it's just 
the best use of the asset that we're looking at.
    The cost for our total project of relicensing, when we look 
at that, we cash-flowed it. There's not been any tax dollars 
put into this from Texas or Louisiana. But we have to look at 
it from a business perspective and try to amortize that cost 
over a period. It really only works reasonably well if we can 
amortize that over the next 50 years.
    Anything shorter, even our own residents say, you know, why 
did you do that? It just doesn't pay for itself. So it's very 
important, Senator, that we get that 50-year license so that we 
can amortize that cost over the 50 years.
    Hopefully the reality is that once the next license term 
comes around we will have operated this reservoir project for 
almost a century. We would at least encourage people to think, 
you know, what else could there possibly be? Do we really need 
to go through at today's level an $11 million study again in 50 
years and maybe we can mitigate that through this process.
    The Chair. Try to wrap up, if you can.
    Mr. Pratt. Will do.
    Last there's two things.
    There's a land exchange legislation that you have sponsored 
in DC that is very apparent that the U.S. Forest Service lands 
were not acquired as originally intended with the project in 
1963. That empowers the U.S. Forest Service to mandate 
conditions on the project that are not necessarily conducive 
with local economic development efforts. So we appreciate your 
sponsorship on that, Chairman.
    We've already covered the no additional.
    Thank you, Madame, for hosting this here. We will stand by 
to answer any other questions you may have about this project.
    Thank you.
    [The prepared statement of Mr. Pratt follows:]

   Prepared Statement of Jim Pratt, Executive Director, Sabine River 
                     Authority, State of Louisiana
                              introduction
    This written statement is submitted on behalf of Jim Pratt, 
Executive Director of the Sabine River Authority, State of Louisiana 
(SRA-Louisiana). SRA-Louisiana, established by the Louisiana State 
Legislature in 1950, is an instrumentality of the State that provides 
an essential public function on behalf of the citizens of Louisiana, 
which it serves. Its primary statutory mission is to conserve, store, 
control, utilize, and distribute the waters of the rivers and streams 
in the Sabine River watershed for multiple public benefits, including 
domestic use, agricultural production, manufacturing and other 
industrial and commercial purposes, hydroelectric power production, 
navigation, recreation and tourism. SRA-Louisiana's operations extend 
to the parishes of De Soto, Sabine, Vernon, Beauregard, Calcasieu, and 
Cameron, which lie within the watershed of the Sabine River and its 
tributaries.
    The governing authority of SRA-Louisiana is a thirteen-member board 
of commissioners, each of which is appointed by, and serves at the 
pleasure of, the governor. SRA-Louisiana is a self-sustaining entity 
that has no taxing authority and does not receive appropriated funds 
from the State of Louisiana. Today, SRA-Louisiana has 64 employees and 
an annual operating budget of $9.8 million.
                    overview of toledo bend project
    SRA-Louisiana's most significant responsibility is the Toledo Bend 
Project (Project), located on the main stem of the Sabine River in the 
parishes of De Soto, Sabine, and Vernon in Louisiana, and the counties 
of Panola, Shelby, Sabine and Newton in Texas. In terms of both surface 
area (approximately 180,000 acres) and storage capacity (approximately 
4.5 million acre feet), Toledo Bend Reservoir is one of the largest 
water bodies in the United States, and is the largest reservoir in the 
nation that is not owned and operated by the federal government. SRA-
Louisiana manages the Project with its co-licensee, the Sabine River 
Authority of Texas (SRA-Texas). The Project is the only hydropower 
facility in the United States that is co-licensed by the Federal Energy 
Regulatory Commission (FERC) to two states through governmental units 
of those states.
    The Project was conceived, licensed, and developed primarily as a 
water supply facility, but also provides hydroelectric power 
production, economic development, and public recreation. The Sabine 
River Compact (Compact), signed by representatives from Louisiana, 
Texas, and the United States in 1953 and approved by Congress, 
apportions the waters of the Sabine River Basin below the northern 
state line of Louisiana equally between the two states. Prior to its 
construction, the Federal Power Commission (FPC), predecessor agency to 
the FERC, granted a 50-year license to the Authorities in 1963. The 
Authorities completed construction and commenced operations of the 
Project in 1969.
    Today, the Project has the capacity to produce approximately 
240,000 megawatt hours of clean, renewable energy annually-enough to 
power about 16,000 homes in Louisiana. Toledo Bend Reservoir also 
provides water supply for local municipalities and industries, as well 
as supports jobs and businesses throughout the lower Sabine River Basin 
through the provision of a dependable water supply. In fact, Toledo 
Bend is the largest unallocated supply of fresh water in Texas, and the 
reservoir is considered crucial to meeting future water demands in the 
region, which are expected to increase in Texas alone by 92 percent 
over the decades between 2010 and 2060. Finally, Toledo Bend supports a 
world-class bass fishery, which supports economic development in the 
region through the numerous recreational opportunities provided by the 
Project.
                              project area
    The Toledo Bend shoreline is approximately 1,200 miles in length-
longer than the entire west coast of the continental United States. In 
Louisiana, the shoreline offers numerous public recreation facilities, 
commercially owned marinas and other businesses, private docks and boat 
houses on lands leased to adjacent landowners, and undeveloped lands. 
While a similar land use pattern also occurs in Texas, the shoreline 
area in Texas also includes approximately 4,000 acres of federal lands 
administered by the United States Forest Service as part of the Sabine 
National Forest, as well as the Indian Mounds Wilderness Area (IMWA). 
IMWA was congressionally designated in 1984-more than 20 years after 
the original Project licensing and 15 years after Project construction. 
No Project structures, facilities or works occupy lands within IMWA.
                     project purposes and benefits
    In addition to serving as a key source of water supply to meet the 
municipal, industrial, and irrigation water needs for both Louisiana 
and Texas, and providing low-cost, emissions-free renewable energy to 
ratepayers in Western Louisiana and Eastern Texas, the Project is a 
significant economic engine in the region, supporting jobs, tourism, 
and local businesses. Among the economic benefits made possible by the 
Project in Louisiana are the Cypress Bend Conference Center, two state 
parks, many private businesses dependent on recreation at Toledo Bend, 
and the large new Sasol plant planned for Southwest Louisiana. We 
believe that in the coming years, as water shortages increase in parts 
of the United States and natural outdoor environments continue to 
confront development pressures, the Toledo Bend Project will become an 
increasingly valuable asset of the States of Louisiana and Texas.
                          relicensing process
    The Project operates under the license issued by the FPC in 1963, 
which expired at the end of September, 2013. The Authorities' 
application for a new license was filed in September 2011 and currently 
is pending at the FERC.
    The Authorities developed the license application through an 8-year 
process that included the development and filing of a notice of intent 
to apply for a new license and pre-application document, extensive 
environmental scoping and studies, and 5 years collaborating with all 
relevant federal and state agencies and the interested public both 
before and after the application for a new license was filed with the 
FERC.
    The relicensing process also involved a successful comprehensive 
settlement with federal and state resource agencies, reached after more 
than a year of intense settlement negotiations. The settlement sets 
forth mutually agreeable terms and conditions for the operation of the 
Project over the new license term, and includes measures that protect 
and enhance fish and aquatic resources, public recreation, water 
quality, and preserves the value of hydropower production and water 
supply.
    In addition, as part of the relicensing effort the Authorities have 
proposed to construct a new renewable generating facility in Louisiana 
to take advantage of water releases from the Project spillway, which is 
expected to produce approximately 11,600 megawatt hours of renewable 
energy-enough to power about 800 homes in Louisiana each year.
    This onerous relicensing process has come at considerable cost to 
the two Authorities, as follows:

  <bullet> The relicensing process costs (e.g., environmental and 
        engineering consultant fees, environmental studies, legal 
        expenses, document preparation, and other related expenses) 
        have totaled over $10 million since inception, and the 
        Authorities expect a total expenditure of over $11 million by 
        the time the license is issued later this year.
  <bullet> Capital costs associated with implementing new license 
        measures are estimated at $3.6 million (not including the 
        capital costs of the new small generating facility at the 
        spillway).
  <bullet> Annual costs associated with operation and maintenance of 
        new protection, mitigation, and enhancement measures set forth 
        in FERC's staff preferred alternative (which includes measures 
        in the relicensing settlement agreement) are estimated at $3.7 
        million.
  <bullet> In addition, the Authorities estimate that they lose $ 2.6 
        million in revenue each year as a result of enhancing 
        recreation at Toledo Bend Reservoir by restricting normal 
        hydropower production to periods when Toledo Bend Reservoir is 
        above 168 feet mean sea level (msl) (even though the Project 
        was designed to draw reservoir levels down to elevation 162 
        feet msl for power generation).

    Together, these costs will increase the Project's total operating 
costs by more than $7 million each year over a 50-year license term. 
For a Project with current operating costs of approximately $16.5 
million annually, these relicensing costs substantially increase the 
Project's total operating costs by nearly 44% annually, even if the 
FERC issues the statutory maximum new license term of 50 years. Of 
course, this increase would be even more substantial if the FERC issues 
a new license for less than 50 years.
                       land exchange legislation
    The Authorities very much need the enactment of S.1484, the Sabine 
National Forest Land Exchange Act of 2013, of which Chairman Landrieu 
is the lead sponsor. Senators David Vitter (R-LA) and John Cornyn (R-
TX) are also original sponsors of this legislation. This legislation 
would remove some aspects of federal oversight under the FPA that 
potentially could cripple the many benefits provided by the Project on 
a going-forward basis. Currently, the presence in the Project of 
approximately 4,000 acres of federal land administered by the U.S. 
Forest Service imposes a considerable regulatory and cost burden on the 
Authorities, both now and into the future. The legislation sponsored by 
Chairman Landrieu, Senator Vitter and Senator Cornyn would remove these 
challenges and ensure that the Project can continue to be a valuable 
asset of the people of Louisiana and Texas.
    The existence of Sabine National Forest lands within the Project 
gives ``mandatory conditioning authority'' to the U.S. Forest Service 
under section 4(e) of the FPA. This broad authority allows the U.S. 
Forest Service to impose upon the Authorities' FERC-issued license any 
conditions it believes would adequately protect and utilize Sabine 
National Forest. Because the U.S. Supreme Court has held that FERC has 
no authority to modify or reject these conditions, there is no 
guarantee that a future FERC-issued license will be balanced in the 
public interest for both developmental and non-developmental values, as 
required by the FPA. Given the unique structure of FPA section 4(e)-
where one agency can override the action agency's overall licensing 
authority-there is little opportunity in the relicensing process for 
the Authorities and other hydropower licensees to challenge the factual 
merits of the conditions.
    Fortunately, the Authorities were able to work closely with the 
U.S. Forest Service in the current relicensing process and resolve all 
their issues through a negotiated settlement of the FPA section 4(e) 
conditions that will apply to the new license. SRA-Louisiana fully 
supports these negotiated settlement terms and is willing to implement 
them as a co-licensee of the Project. In a future licensing proceeding 
involving the Project, however, the Authorities should not be subjected 
to the risk that the U.S. Forest Service could impose onerous or 
crippling conditions to protect its narrow interests at the expense of 
the broader purposes of the Project.
    While all lands involved in this matter are on the Texas side of 
the Project, Louisiana is liable for one-half of all the costs of the 
Project. Thus, we share the interest of SRA-Texas in removing all 
federal land from the Project.
    In addition, removal of Sabine National Forest lands from the 
Project, together with the assurance that other non-fee federal 
interests in Project lands would not trigger land use fees under FPA 
section 10(e), would remove the threat to the Authorities to pay 
extraordinary federal land use fees to FERC. According to an estimate 
by the Authorities, these FERC fees could be as high as $3 million 
annually, which would wreck the economics of the Project. The FERC is 
not collecting these fees from the Project for two reasons: (1) the 
FERC has found that Project power is provided to consumers without 
profit; and (2) the FERC has determined that it will not collect these 
fees at all from anyone right now, but has not rejected its authority 
to collect these fees. The potential liability of the Project for these 
fees is exacerbated because a prior land exchange in the 1980s retained 
the federal government's ``power site reservation'' on over 30,000 
acres of lands inundated by Toledo Bend Reservoir. This ``power site 
reservation'' is the alleged basis of this fee by the FERC. The 
Authorities are pleased about the refusal of the current FERC to 
collect these fees, but also are keenly aware that a future FERC could 
change this position and determine to collect these excessive and 
unjustified fees in the future. Because any further change in FERC 
policy could be devastating to the Project, SRA-Louisiana supports a 
legislative solution that removes FERC's power to collect fees for any 
interest in federal land at the Project.
                  no additional relicensing processes
    Finally, SRA-Louisiana questions why this Project should undergo 
another relicensing in 30 to 50 years. At that point, the Project will 
have been operating for 80 to 100 years, which provides ample time to 
fully understand and address environmental effects of its operations. 
The comprehensive, complex, costly and time consuming ``audit'' of the 
Project-which is what the re-licensing process is all about-against the 
full spectrum of environmental laws of the nation will be completely 
unnecessary. The Project has now been through an original licensing 
and, very recently, a relicensing. SRA-Louisiana has no objection to 
remaining under the jurisdiction of the FERC according to the terms of 
our settled license conditions, which will contain sufficient authority 
to reopen the license, where justified, to address any implementation 
issues that might arise at the Project.
    We view this entire costly application process for a new license in 
30 or 50 years to be an imposition of government expense of 
questionable value. This Project is an asset owned by the people of 
Louisiana and Texas, and it is the only FERC-licensed Project in the 
nation that is owned by two different states. This Project is not 
operated for profit, but for the benefit of the people of Louisiana and 
Texas. Therefore, we ask Chairman Landrieu to do all in your power to 
relieve this Project of incurring another major expense-which may be 
much greater in 30 or 50 years than our current relicensing-occasioned 
by the requirement to seek a new license periodically.
                               conclusion
    Thank you, Madam Chairman, for your great interest in the success 
of the Toledo Bend Project and for this hearing that you are conducting 
here today on the Project. We appreciate your support and your 
leadership in Congress to address issues that will enable this 
important state asset to achieve its full potential as an electricity 
producer, a water supply facility and an engine of economic development 
for Western Louisiana.
    We welcome your questions about the Project, Madam Chairman.

    The Chair. Thank you very much, Mr. Pratt.
    Ms. Curtis-Sparks.

   STATEMENT OF LINDA CURTIS-SPARKS, DIRECTOR, SABINE PARISH 
                       TOURISM COMMISSION

    Ms. Curtis-Sparks. I want to add my appreciation to Senator 
Long's remarks in you bringing this Commission to us today 
because the story and I'm going to tell more of a story today.
    I'm going to speak to you as a resident because if you had 
250 people in this room there would probably be 5 of us that 
lived here prior to Toledo Bend being built. So we can tell you 
the wishes or what the people then thought it would be. I will 
speak to you with a little bit of knowledge from my time as 
Director of the Sabine River Authority. I will tell you today 
of what's happening with tourism and retirement development as 
the Director of the Sabine Parish Tourist Commission.
    Sixty-six years ago this past Monday, a group of 
businessmen from about 16 miles as the crow flies Edgefield, 
that area, to about 16 miles into Many were very concerned 
about who was going to take our--the most water out of Toledo 
Bend and how they were going to be sure that both states got 
their equal share. At that time this was a very poor rural 
agricultural area as was Desoto to the North and Vernon to the 
South. So these people were really concerned.
    Out of that grew the legislation that established the Texas 
and Louisiana River Authorities. For the next 20 years they 
went through conceptual studies and gaining the financing took 
about 7 years and the construction----
    The Chair. Linda, I just have to say you were 5 years old.
    Ms. Curtis-Sparks. Almost.
    [Laughter.]
    The Chair. But go ahead. It's a great story.
    Ms. Curtis-Sparks. OK.
    I was at the ground breaking. I was at the dedication. I 
know what the people thought it was going to be.
    At that time we envisioned lots of factories coming because 
we were going to have all the water it took to attract those. 
You can go back and you can look at the Shreveport Times and 
the Longview papers. They had big pictures of big factories.
    It never happened. I'll state up front because I have been 
involved in the area so long, its people often ask why has it 
never happened?
    Senator Long mentioned, you know, you can go still to 
places in Louisiana that don't know about Toledo Bend. I hear 
all the time people in Louisiana that have never heard about 
Cypress Bend. I work that market.
    I don't know in my lifetime if we'll ever get that word 
out.
    But the two things that, in my opinion, have really held 
this project back is when we finally got it built. It was truly 
a miracle that it was built. It was built, as you know, by the 
people of Texas and Louisiana without any Federal assistance.
    There was no infrastructure built. The roads and the water 
to create those industries coming in was not put here. So those 
people that came to Toledo Bend in those first years, I 
personally traveled 26 miles on a dirt road to fish at Toledo 
Bend. So it just wasn't here.
    So those first 20 years of Toledo Bend it didn't happen 
because there was just no infrastructure. We had a lot of local 
people that put in a lot of local marinas. By the end of that 
first 20-year period, by the first of say, 1990, we had 2,600 
homes and camps, most of them were camps that were kind of 
shotgun camps. We had very, very few really nice homes in 
Toledo Bend at that time.
    We had 204 hotel rooms on this lake that you could rent to 
the public to come to Toledo Bend. So we couldn't market Toledo 
Bend on a national level in 1990 because we didn't have any 
place for them to stay. We didn't have North and South Toledo 
Bend and some of the things we have then.
    So the River Authority did adopt, in my opinion, an 
aggressive economic development program.
    They built 33 hard surface roads.
    They built Cypress Bend.
    They cleared and marked broke roads.
    They started restocking the lake.
    Within a 5-year period we saw a significant economic 
change.
    We, at that time, went from 2,600 homes to 5,600 homes in 5 
years. Now those numbers and I want to explain this in case you 
go out and check with our Assessor's Office, because we now 
have just about 6,000 on the row. But most of those homes and 
camps that were here in 1969, those mobile homes, have ceased 
to be. Those camps have been replaced with $300,000 to $1.5 
million homes.
    So we still have about, at this time, 6,000 homes or 
structures along the 80 percent shoreline, about 480 miles of 
shoreline in Sabine Parish.
    Now the, because of Cypress Bend, and Cypress Bend was part 
of that economic program. It was built to give the banks a 
property comparable. It was built to give the banks an 
occupancy comparable because at that time about 30 of our old 
marinas had been owner financed and sold for too much money 
that you couldn't drive to pay off a $300,000 note with 5 
cabins and a boat ramp. So those owners have taken them back 
and taken them back and taken them back over the years.
    Since Cypress Bend was built we now have 750 rentable 
rooms. We now have about 800 RV pads. So we're getting close to 
1,600 rentable units on Toledo Bend. About 17 times out of the 
year those rooms are all full. So we max out at many times of 
the year.
    Coming forward the next 15 years we continue to experience 
the same problems we had in 1969, are the same problems in 
2009, is that the infrastructure on Toledo Bend still holds 
back the development of Toledo Bend and people that come in 
from Houston which is one of our main areas to draw from, South 
Louisiana to that area they don't understand because they look 
at Lake Livingston and Lake Conroe and it's house to house and 
it's businesses and multiple restaurants.
    But we can't a Holiday Inn Express on this lake because we 
don't have water for fire protection. We don't have sewer. Of 
those 6,000 homes, probably, maybe 5 percent are serviced by a 
sewer system, a community sewer system. The rest of them are on 
individual units. So when business gets ready to come into this 
area they have to put in sewer and water. You're just not going 
to get it.
    The other thing, the second thing, in my opinion, that has 
held back the development of Toledo Bend is that we are a 
small, rural parish where you have 80 percent of the lake. 
Senator Long will tell you when you go to Baton Rouge and he 
represents 4 other parishes and our Representative represents 
5, you don't get State money to bring home. It's very, very 
difficult. He can tell you those challenges because our 
Senators and Representatives have fought it for years.
    The only way that we got money to build Cypress Bend, we've 
brought all of them up here and we told them the story. They 
saw the economic value. So it is a struggle indeed.
    I turn it back to sewer and water.
    On the positive side you will see tomorrow that ESPN story 
that Jim talked about that was filmed here a couple of weeks 
ago. We had the top pros in the world at Toledo Bend. They come 
because it is a fabulous fishing resource.
    On the negative side that wonderful tournament that's down 
at that arena today has 2,500 people. I asked Bob Seeley 
yesterday why can we not get 7,500 like Rayburn's got or had 3 
weeks ago? He said you can't get them because I can't bring 
out-of-State people in because you still don't have the 
lodging. You don't have the rooms for them, plus the quality of 
rooms.
    So I close with this remark. We really appreciate the 
efforts that you have made in helping the River Authority work 
through the issues with FERC. We hope that you will be 
successful in getting a 50-year license because the cost of the 
authorities when they have such a small amount of money to 
operate on to meet the recreational needs of the future, are 
going to be really difficult.
    We would ask that it never have to be licensed again. But 
for the FERC license or the requirement of the FERC license as 
we go forward to take 40 or 45 percent of these authority's 
revenues to address the needs in there. We ask that you do all 
that you can in that area to help lower that cost.
    The Chair. Thank you for that impassioned testimony. You 
bring such depth of experience and the knowledge having been 
here from, in large part, from the beginning. I'm going to have 
several questions to ask you after we have our other panelists.
    But let me just say that you have a champion in me. I've 
said that to you privately and publicly to develop in the most 
appropriate way for the benefit of this region, as well as for 
the benefit of the whole State and Nation, but for this region, 
the people that live here to see the true benefits of this 
extraordinary asset. So I look forward to continuing to work 
with you. Thank you so very much.
    Mayor Freeman.

STATEMENT OF KENNETH A. FREEMAN, MAYOR, TOWN OF MANY, LOUISIANA

    Mr. Freeman. Senator, contrary to President Putin of 
Russia, we want to welcome you to Toledo Bend country.
    [Laughter.]
    The Chair. Thank you.
    Mr. Freeman. Let you know you are always welcome to join 
us. We look forward to and appreciate your being here.
    Ms. Curtis-Sparks. Thank you for enlightening me.
    Mr. Freeman. I too was here when the lake was built. I 
remember those discussions as to why it was important, what 
would happen, what our hopes and dreams would be, if this came 
to pass. As you're well aware the lake was built to accomplish 
many, several goals for the people and the citizens of 
Northwest Louisiana and Northeast Texas.
    One was to generate electricity.
    One was to provide a reliable source of water for industry.
    To create recreation and tourism.
    Since its completion Toledo Bend project has not 
disappointed.
    Since its completion the lake has continually generated 
electricity to help feed the growing demand for energy in 
America.
    Since its completion water sources have been consistent and 
good water to the point where just recently whether you agreed 
with the concept or not. Dallas came to Toledo Bend to ask to 
buy water which to me underscores the fact that our children 
are going to be faced with some tremendous challenges to meet 
the essential resources to meet the demands of an ever growing 
human population.
    Tourism and recreation.
    Today Toledo Bend is recognized as the second most visited 
tourist attraction in the State of Louisiana. A pleasant 
surprise because of the tourism coming to Toledo Bend another 
industry has sprung up that's important to our economy and 
that's retirees. Today Toledo Bend is one of the fastest 
growing destination points for retirees in Louisiana.
    So those of us who were here from the beginning know that 
Toledo Bend is not just a sportsman's paradise.
    We know it's not just a big old hole in the ground with a 
lot of water in it.
    We know that it is the engine that drives our economy.
    However, this engine can't roar to its fullest potential 
until we accomplish one more goal and that's transportation. 
The people of Many have worked diligently for the last 25 years 
to expand our airport and are pleased to report that within 5 
years jet planes will be able to land, for the first time, in 
Sabine Parish.
    I have served on the El Camino Real Commission for the last 
23 years. It's a 5 State commission to 4 lane highway 6 from 
New Brunswick, Georgia to El Paso, Texas. I'm keenly interested 
in four-laning from Pendleton Bridge to 49, opening up Toledo 
Bend country, allowing that economic engine to produce more 
than we ever imagined.
    We here today are asking you to continue to support the 
Toledo Bend project and help us accomplish these goals so that 
this area can reach its fullest potential and in doing so build 
a stronger North Louisiana for generations to come.
    The Chair. Thank you, Mr. Mayor, very well done.
    Mr. Ruffin.

 STATEMENT OF WILLIAM RUFFIN, PRESIDENT, SABINE PARISH POLICE 
                              JURY

    Mr. Ruffin. Thank you, Senator.
    The Chair. President Ruffin.
    Mr. Ruffin. As the other panelists have already done, 
stated beforehand, we're very pleased to have you here with us 
in Sabine Parish. On behalf of the governing body of the Parish 
and the citizens of this entire Parish, we certainly salute 
you. We'd like to commend you for your new appointment and even 
though this is not a political committee, we don't dare think 
of not keeping you in the position that's so vitally important 
to the State and the citizens of Louisiana and this entire 
Parish.
    As for the Toledo Bend project I'd like to emphasize 
continue with the same things that others have mentioned, the 
importance in terms of recreation and economic value. It is 
quite obvious that the police jury and the citizens depend upon 
the economic value. That's so vitally important to all of them, 
the taxes that's drawed from the Lake, Toledo Bend Lake.
    But I would also like to emphasize the importance of 
recreation thanks to Toledo Bend Lake Association, the 
Authority, the Tourist Commission. The Toledo Bend Lake has 
attracted retirees, that the Mayor just pointed out. They don't 
just come here to fish, recreation seasonal. We still have 
that.
    But since the lake opened, yes I remember that too, there 
have been a number, as Linda pointed out, a number of people 
that have come from all over the country and retired in this 
area. There's very seldom mention the human resource that's 
brought on by the lake. We benefited from people from all over 
this country that come here to retire. They bring their 
expertise.
    Yes, they do retire, but very few of them come here just to 
fish. Even if they do, they find themselves becoming very 
active throughout the community.
    We have one example. An individual from the Lake 
Association that served on the Authority was voted citizen of 
the year in Sabine Parish just a few years ago. Those people 
are very, very important to the development of this Parish and 
to the lake. We certainly hope you will continue to support the 
growth and development of the lake for all the reasons have 
been mentioned.
    I am very pleased to point out, thanks to Senator Long and 
Representative Frank Howard, the Police Jury appointed a long 
range water planning committee to study the feasibility of 
water. Water is so vitally important as you've heard any number 
of times. It is very important. We recognize that.
    But we have a committee. Next week we're going to appoint 
an engineer. Thanks to Senator Long and Howard, we received a 
grant to do a long-range study for water in Sabine Parish. The 
Police Jury will appoint an engineer next week so that we can 
get started on that study, the feasibility study. We're going 
to rush that right through so we can go on with the plan of 
developing water for the citizens in this entire Parish.
    As has been pointed out any number of times before, the 
growth of Toledo Bend and Sabine Parish is hindered by the lack 
of water, the availability of water as so vividly have been 
pointed out in a number of cases before. But we're working on 
that. We certainly hope that you would assist in the continued 
growth of that.
    We know we have the support of Senator Long and Senator 
Howard, our State led. But we also know that Northwest 
Louisiana, we are aware the location. It's a little different 
from South of 10.
    It is difficult to receive those funds. But we have very 
strong legislators that are working diligently to help provide. 
We certainly appreciate all the support that you can give us in 
that endeavor. We feel like the future of Sabine Parish depends 
largely on the growth of Toledo Bend.
    All that you can do and we welcome you back numerous times. 
We want you to come back. I remember before when Linda had you 
here. We went down and I would invite all of those of you that 
are here and encourage others. We were able to travel by barge 
down the lake and to just look on the shores at the growth of 
Toledo Bend. It is fantastic.
    I'm very proud to say, Toledo Bend, Sabine Parish is my 
home. When we walk out at Cypress Bend and we went through that 
endeavor. I've been on the jury for a couple of years too when 
we had to struggle to get Cypress Bend even built. It was 
indeed a struggle.
    But it has been good for the Parish. We certainly 
appreciate your continued support in that.
    The Chair. Thank you all very much, really appreciate the 
testimony today.
    Let me just begin by getting a few questions on the record 
to you, Mr. Pratt. Then I have some additional questions for 
the panelists.
    The Sabine River Authority as you testified today has spent 
$11 million on, approximately $11 million, I think you said, on 
reauthorization. How much money, roughly, would the Authority 
save if you can or we can secure the 50-year license instead of 
the 30 or 40 year?
    Have you roughed that savings out?
    Mr. Pratt. Apparently the initial cost of the $11 million 
is gone. The good news is is that the last time we went for a 
rate negotiation with the power companies we had an $8 million 
estimate. So we recovered that.
    But the reality----
    The Chair. I'm not--can you make that clear to me? I'm 
sorry. You've already spent the $11 million to date with the 
reauthorization.
    Mr. Pratt. Yes.
    The Chair. But when you renegotiated your power you got an 
$8 million plus over what you were expecting?
    Mr. Pratt. No. It was factored into our current rate. But 
that rate goes away here within the next year or two. We'll 
have to start over.
    But once we've made that expenditure though and the real 
challenge that we're going to have, Senator, is is that there 
are mandates and additional obligations under the terms of the 
new license that we agreed to that will cost us an extra amount 
per year.
    The Chair. OK. Let's talk about what one or two of those 
just might be.
    Mr. Pratt. Sure.
    The Chair. If you have it. Just as clear as you can be, one 
or two requirements that are going to increase your operating 
cost.
    Mr. Pratt. One of those that was very apparent is is that 
the amount of water that we were releasing through the power 
plant we've had to adjust that somewhat. It diminishes a little 
bit of our power production on an annual basis.
    The Chair. You've been required to reduce it or increase 
it?
    Mr. Pratt. Reduce it.
    The Chair. Reduce it.
    Mr. Pratt. Reduce it.
    The Chair. For what reason?
    Mr. Pratt. For what reasons? It was a balancing of the 
flows downstream. There wasn't any real albatross or anything 
that was out there. But it was just concerns that the resource 
agencies had that we were releasing large slugs of water. Then 
when we quit generating then it was down to a very minimal 
amount.
    We agreed with them to work with them. Now we didn't go----
    The Chair. You agreed to make it a more steady flow?
    Mr. Pratt. Yes, Ma'am. Yes, Ma'am.
    The Chair. Instead of the surge?
    Mr. Pratt. Right.
    The Chair. That's going to reduce a little bit of your 
income?
    Mr. Pratt. It will because some of that constant flow will 
actually be released through our spillway rather than the power 
plant itself. So there's no power generated when we do that.
    Now as an alternative condition that we've asked for in the 
license is that we try to capture some of that release at the 
spillway in a mini hydro unit. We won't know for sure until we 
get the license and then see if that will be economically 
feasible.
    It won't produce a whole lot of power. But again, trying to 
capitalize on if we're going to release water for environmental 
purposes, run it through a small turbine and that will offset.
    In addition what strikes me most is that the Federal lands 
that the U.S. Forest Service owns along the shoreline. We----
    The Chair. On the Texas side?
    Mr. Pratt. Yes, Ma'am. That are on the Texas side, but of 
course we're jointly responsible for the administration of 
those lands. We planned that we will be doing some historic 
surveys on those lands at their demand, basically, over the 
next several years.
    Now once your bill moves forward and we can exchange lands 
with the Forest Service and own them ourselves, then that will 
mitigate our future cost of having to do archeological surveys 
on public land.
    The Chair. OK.
    Senator Long, let me ask you this.
    Do you think or could you describe the level of 
understanding currently, not only yours, but not so much yours 
because you clearly understand it. But among the Governors that 
you've served with, among legislators that you've served with 
in both parties, do you think that there is an understanding 
about the value of this particular resource and how, if a few 
things could be done and stronger partnerships it could really 
develop more along the lines of what Ms. Curtis-Sparks and 
Mayor Freeman and President Ruffin have outlined?
    Mr. Long. Senator, that's a great question. I think people 
understand the significance of a global concept or a national 
concept of water. We're beginning to see that pretty clearly as 
we look at the fact that 36 states currently are in a drought 
condition or semi-drought condition.
    What has not yet hit home in Louisiana is the significance 
of the role of Toledo Bend in mitigating some of these issues 
that are national in scope. Now look, I felt very strongly to 
protect the integrity of our water here. But we have to realize 
also that we have a diamond in the rough and that 90 percent of 
our water in Toledo Bend eventually ends up in the Gulf of 
Mexico.
    So we've got to be proactive in figuring out how we can 
manage this valuable resource. No one that I know would 
deliberately give away 90 percent of their assets. So we do not 
understand how this wonderful situation that we've inherited 
with the growth of our area in our State and Toledo Bend fit 
together.
    The Chair. That's exactly my point. I'm so glad you raised 
it because initially when this was built the idea was that the 
hydropower and electricity would be the driving value. It is 
clear today after 50 years that the driving value is the water 
itself. So that the Authority has a very significant 
responsibility to manage that water for the highest and best 
use of the communities in which it serves.
    It's a little bit unsettling and ironic that I hear the 
testimony that Toledo Bend is sending all the water necessary 
for international plants to operate, but the community that 
lives here can't get clean drinking water or water enough for 
its development of its subdivisions and schools and you know, 
commercial developments. It's a little bit unsettling here.
    Mr. Long. Senator, if I----
    The Chair. So help me understand what you think or what the 
Authority thinks is its responsibility to the local 
communities, particularly the 3 parishes of Sabine, Desoto and 
Vernon and then you've also got Beauregard, Calcasieu and 
Cameron, but Sabine, Desoto and Vernon.
    Mr. Long. Let me address that briefly. Others here 
certainly have greater knowledge than I do on this.
    The grant that Mr. Ruffin spoke about is a $13 million 
capital outlay which I was able to put into and work with the 
Administration. Now the caveat on that, under some of the rules 
we've passed at Baton Rouge which aren't necessarily, in my 
opinion, favorable for small parishes, require a 25 percent 
match. In other words if I get $13 million, $3.2 million of 
that has to be paid locally.
    I want to say this again without politicalizing anything. 
We worked with the Administration very closely. We were able to 
get that $3.25 million waived.
    The Chair. That is terrific.
    Mr. Long. As a results of that----
    The Chair. That is a great effort.
    Mr. Long. Yes.
    The Chair. Congratulations because I have something to say 
about these matches. But thank you for doing that.
    Mr. Long. But to answer your question is that without a 
doubt the 3 parishes that surround the lake itself are the ones 
most influenced. We believe that once this project, this $13 
billion project is implemented it could well address, perhaps 
as much as 80, 85 percent, of these ongoing issues that have 
been, obviously, a problem in expanding them.
    The Chair. A barrier for expanded economic development.
    Mr. Long. Yes, exactly.
    The Chair. Whether it's retirement communities, whether 
it's additional, you know, lodging and hospitality, whether 
it's small, commercial enterprises and restaurants and you 
know, hardware stores and you know, auto mechanic supplies, 
shoe repair. I mean, you could just think of when you bring in 
people that come in either to live permanently throughout the 
year, particularly for seasonal. You know, they come in, spend 
a lot of money.
    Don't really rely a lot on the resources. I mean, sometimes 
families come in just for vacationing. You don't have to give 
them too much hospital care. You don't have to give them 
schools. You don't give them too much policing.
    But they spend a lot of money while they're here. So 
they're kind of the best kind of dollar you can generate for 
your community. All they really want to do is spend their money 
in your community. Then they leave to other places. That's 
$1.00.
    The other dollars are attracting long term, you know, 
annual residents that can come in, that do have access to good 
schools, hospitals, you know, key shopping opportunities so 
families can think that they can.
    I have to say one of the other reasons that drives me to 
this table now is because of the great benefit this is to Fort 
Polk. You all know as one of the great characteristics or 
assets that we put on the table to the Pentagon when they're 
looking around closing some of our joint training bases. We had 
said why would you close Fort Polk when we've invested over a 
billion dollars of infrastructure in housing? The State, 
because you all have, as well, worked with us to put in some 
additional infrastructure to Fort Polk and the soldiers and 
their families at Fort Polk have access to a world class 
recreational, you know, facility, Toledo Bend.
    That scores a high mark in the Pentagon when they're 
looking at well, we should probably not look at closing Fort 
Polk core. So that is another economic driver for this whole 
region that is in some ways directly related to what happens 
here. So that military piece is really, really important.
    President Ruffin, let me ask you this. Have you all 
estimated for your parish what the sewer build out might be for 
supplying or wait, I'll come back to you ask you, Linda, too, 
the, you know, just the basic water, sewer connections that 
would allow the kind of just regular development that goes on 
in subdivisions and communities throughout the State.
    Do you have a rough estimate of what your cost might be 
there?
    Mr. Ruffin. It would be extremely difficult because we have 
not looked into that. But we do understand without the long 
range water planning that we spoke of.
    The Chair. Right. You can't do the development.
    Mr. Ruffin. It is totally out.
    The Chair. So until you get the study done it's hard to 
figure out what it's going to be.
    Mr. Ruffin. It's going to be because we don't have it and 
we've not had it before. This is new.
    The Chair. So this is going to be a great first step that 
Senator Long has managed to secure for you all.
    Mr. Ruffin. It certainly is.
    I might point out that this study was hindered because when 
the jury was confronted with this it was totally out of the 
question if we had to do that now.
    The Chair. Let me say a word about the match because I say 
this all over the country and I'm going to say it right here. I 
think it is wrong headed policy for the Federal Government or 
for State government, Senator Long, to require the same match 
for urban and rural and the same match for densely populated 
areas and sparsely populated areas.
    If you think about it when we pass laws and we do this, 
unfortunately, all the time at the Federal level and at the 
State level, where we give out grants but you can only access 
the grants if you can come up with the match. If you think 
about what happens over time as all taxpayers send money to the 
State, rich and poor alike. All taxpayers send money rich and 
poor alike to the Federal Government. But the only counties 
that can pull the money back down are the richer parishes 
because they're the only ones that can afford the match.
    It is an absolutely self defeating system that has to stop.
    Now I'm an appropriator. I've been an appropriator since I 
was 23 years old. I have been trying to get this changed. To 
some degree, have by doing exactly what Senator Long did by 
occasionally getting enough power to waive the requirement.
    But that policy has to change. It should be stricken from 
our laws. There should be a graduated match with the poor 
parishes being able to put up like a 5 percent or a 10 percent. 
The middle income parishes put up 15 or 20. The wealthier 
parishes actually put up a 30 percent match. That would make 
everything much more fair whether you're talking about highways 
or water or sewer, etcetera.
    So I'm going to continue, you know, to speak about this. 
I'm making very incremental progress.
    But thank you, Senator Long, because it's just absolutely 
unfair to a community that's a rural community and can't, you 
know, pool together sometimes the resources it needs to claim 
the funding that is truly theirs.
    The other thing is I hope the local authorities with the 
assessors and these parishes will look at the increased 
revenues that are coming to the parishes based on the 
development here. Linda, as you said, people aren't living in 
trailers, they're living in million dollar homes.
    Those homes are being assessed. They're paying property 
tax. Same exact thing is happening in Grand Isle. You know, the 
generation of wealth in Grand Isle and it all goes to Jefferson 
Parish, but I keep telling Jefferson Parish, you should share 
some of that revenue back with Grand Isle because they're a 
small, little place, but they're generating, they're a 
generator of income for Jefferson Parish.
    So it's sort of the same thing up here that you've got 
these communities that are generating income to the parish. I 
hope the parish will be sensitive and help you continue to 
invest back in this community for it to grow for, you know, 
public access, boat launches, all the things, new lodging, 
etcetera.
    So do you want to add anything? We're going to wrap up in 
just a few minutes.
    Ms. Curtis-Sparks. No, I think it is important though, 
because this is a regional project too, for your records is 
that several of them, Ken and Mr. Ruffin have mentioned the 
retirement development which I did not touch on a great deal. 
But about a third of the retail value of those that have 
settled here goes to Shreveport, Bossier and to Rapides and so 
that is one help that Senator Long can gather those people. But 
when he has, as I said, he's one vote and you have 17 in Lake 
Charles and you have 55 in New Orleans, it's hard for him to be 
able to bring that money up here.
    We just got a time in a lifetime here. We're very 
appreciative to him.
    But the retirement value of that or the economics, I want 
you to understand, is just not for Sabine Parish. In fact, the 
State of Louisiana last year recognized what you mentioned. 
They put $200,000 into internet marketing for Vernon because of 
Fort Polk, Toledo Bend, because of the retirement here in 
Shreveport Bossier. They just put another $125,000 into 
marketing for the month of May because it has generated so much 
interest in our areas.
    Incidentally, Toledo Bend beat Shreveport Bossier, you 
know, which is a real plus. But other people----
    The Chair. Beat them in what way? Beat them in what way?
    Ms. Curtis-Sparks. Toledo Bend beat Shreveport Bossier as 
far as the Google analytics, the number of people that it drove 
to us, to our website verses Shreveport Bossier's and Vernon's. 
So there's tremendous interest out there.
    But we're continually telling the story. It's not just the 
benefit of those retirees to Sabine. Those people go to 
Shreveport Bossier for medical help. They go they buy cars and 
boats and appliances, same thing to Rapides.
    So it is a regional benefit from that economic development 
that is being done here in Sabine Parish.
    Mr. Freeman. Senator, to underscore what Linda just said. 
In the last 30 years I've seen the sales tax revenues for the 
citizens of Many increase 97 percent. That's significant in 
real dollars.
    So it is----
    The Chair. Identifying where those drivers of that increase 
sales tax are coming from and increased property taxes and then 
having the local officials reinvest in the areas that are 
generating it will help the whole community grow.
    I'll continue to work with you all on that informally. But 
I'll continue to work with the Authority officially through the 
reauthorization of FERC to see what I can do to strengthen the 
Authority to help them save as much money as they can in their 
petitions and relicensing to the Federal Government so we can 
generate, maybe, some additional resources that could be spent 
right here at home at the Louisiana side of the Sabine. Also 
help out our Texas friends on their side as well.
    Let's go for one 30 second closing comments.
    Senator Long, just anything that you want to put on the 
record that hasn't been put that you think should be?
    Mr. Long. Again, as I have commented earlier water is going 
to be absolutely the driving force, not only in Louisiana but 
throughout the Nation. We have a diamond in the rough. If we 
can figure out how to manage it properly I think you'll see an 
economic explosion that will benefit the entire State.
    The Chair. Thank you.
    Mr. Pratt.
    Mr. Pratt. Yes, Ma'am.
    Fifty-year minimum license, Federal land swap with the U.S. 
Forest Service and exemption from any FERC fees for occupying 
Federal lands.
    Thank you.
    The Chair. Thank you.
    Lin.
    Ms. Curtis-Sparks. I have to amen what Jim has said and 
mention just one quick thing that was not mentioned is that as 
far as your question on other things in the FERC license.
    I think that SRA has made every effort to try to not hinder 
economic development with residents and businesses. But the 
shoreline development policy we would ask that it not require a 
great amount of funds in the future in meeting requirements 
because that's going to impact economic development.
    The Chair. Absolutely.
    Ms. Curtis-Sparks. If you would note that too. But thank 
you so much.
    The Chair. Thanks.
    Mayor.
    Mr. Freeman. I agree with the world population from and 100 
years going from 2 billion to 6 billion people on this earth to 
in the last 10 years growing another billion. Water is going to 
be essential and very valuable resource.
    But for us here today transportation, again. You've got to 
be able to get in here and get out. I think that's going to be 
an integral role in developing it to its fullest potential, 
four-laning highway 6 at least to I49.
    The Chair. Thank you.
    President Ruffin.
    Mr. Ruffin. Yes.
    One of the most important things and that you mentioned 
about reinvesting into the communities that develop the tax 
base and all. It is vitally important that we recognize the 
fact that as governing body of this entire parish it's pretty 
much like a family. Regardless to what one individual does that 
individual represents our parish, our family.
    So is true with Toledo Bend Lake as to Toledo Bend 
community grows so does Sabine Parish. The governing body has 
the responsibility of making sure that the entire parish grows 
along with Toledo Bend and to polarize one group from another.
    It is a difficult task because we've received so many 
resources from the lake area. But we have areas that don't 
receive just in the State of Louisiana and Northeast Louisiana. 
They don't get near as much as they do in South Louisiana. But 
then we still have to take care of Northeast Louisiana too.
    The same is true with our parish government. We have to 
make sure that the entire parish is taken care of.
    The Chair. Thank you.
    Excellent note to end on. It's been a terrific meeting. 
We've all learned a lot. Put a lot on the congressional record 
that I think will help this community and our State for many 
years to come.
    Meeting adjourned and thank you all so much.
    [Applause.]
    [Whereupon, at 11:44 a.m., the hearing was adjourned.]

    [The following statements were received for the record.]
            Statement of the Sabine River Authority of Texas
    This written statement is submitted on behalf of the Sabine River 
Authority of Texas (SRA-Texas). SRA-Texas, established by the Texas 
State Legislature in 1949, is an official agency of the State of Texas 
that provides an essential public function on behalf of the citizens of 
Texas, which it serves. We were created as a conservation and 
reclamation district with responsibilities to control, store, preserve 
and distribute the waters of the Sabine River and its tributary streams 
for multiple public purposes, including domestic use, agricultural 
production, manufacturing and other industrial and commercial purposes, 
hydroelectric power production, navigation, recreation and tourism. 
SRA-Texas's operations extend to all or part of 21 counties (Orange, 
Newton, Jasper, Sabine, San Augustine, Shelby, Rusk, Panola, Harrison, 
Gregg, Smith, Upshur, Wood, Van Zandt, Kaufman, Rains, Rockwall, 
Collin, Hunt, Hopkins, and Franklin), which lie within the watershed of 
the Sabine River and its tributaries.
    We supply water to municipal, industrial and agricultural users 
throughout the Sabine River Basin. This is accomplished through the 
John W. Simmons Gulf Coast Canal System in Orange County, the Toledo 
Bend Reservoir, the Lake Tawakoni Reservoir, and Lake Fork Reservoir. 
Our customers include municipal and domestic clients with the largest 
being the Cities of Dallas, Longview and Greenville. We also have 
industrial clients, which include DuPont, International Paper and Texas 
Eastman.
    SRA-Texas is governed by a nine-member Board of Directors appointed 
by the Governor of Texas to serve six-year terms. Board members are 
vested with the management and control of the affairs of the SRA-Texas, 
which receives no appropriations from the State and is not empowered to 
levy or collect any kind of taxes. Operating funds are primarily 
derived from the sale of raw water, hydroelectric power, water quality 
services, and recreational and land use permit fees. Currently we have 
104 full-time positions and operate within a budget of approximately 
$21.6 million.
                    overview of toledo bend project
    One of SRA-Texas's most significant responsibilities is the Toledo 
Bend Project (Project), located on the main stem of the Sabine River in 
the counties of Panola, Shelby, Sabine and Newton, and in the parishes 
of De Soto, Sabine, and Vernon in Louisiana. In terms of both surface 
area (approximately 185,000 acres) and storage capacity (approximately 
4.5 million acre feet), Toledo Bend Reservoir is one of the largest 
water bodies in the United States, and is the largest reservoir in the 
nation that is not owned and operated by the federal government. SRA-
Texas manages the Project with its co-licensee, the Sabine River 
Authority, State of Louisiana. The Project is the only hydropower 
facility in the United States that is co-licensed by the Federal Energy 
Regulatory Commission (FERC) to two states through governmental units 
of those states.
    The Project was conceived, licensed, and developed primarily as a 
water supply facility, but also provides hydroelectric power 
production, economic development, and public recreation. The Sabine 
River Compact (Compact), signed by representatives from Louisiana, 
Texas, and the United States in 1953 and approved by Congress, 
apportions the waters of the Sabine River Basin below the state line 
equally between the two states. In 1959, the States of Texas and 
Louisiana arranged for the financing of $30 million in revenue bonds 
for the Project; the sale of electricity from the Project's 
hydroelectric operations provided funds to pay for the revenue bonds. 
The Project is the nation's only public water conservation and 
hydroelectric power project to be undertaken without federal 
participation in its permanent financing. Prior to its construction, 
the Federal Power Commission (FPC), predecessor agency to the FERC, 
granted a 50-year license to the Authorities in 1963. The Authorities 
completed construction and commenced operations of the Project in 1969.
    Today, the Project has the capacity to produce approximately 
240,000 megawatt hours of clean, renewable energy annually--enough to 
power about 16,000 homes. Toledo Bend Reservoir also provides water 
supply for local municipalities and industries, as well as supports 
jobs and businesses throughout the lower Sabine River Basin through the 
provision of a dependable water supply. In fact, Toledo Bend is the 
largest unallocated supply of fresh water in Texas, and the reservoir 
is considered crucial to meeting future water demands in the region, 
which are expected to increase in Texas alone by 92 percent over the 
decades between 2010 and 2060. Finally, Toledo Bend supports a world-
class bass fishery, which supports economic development in the region 
through the numerous recreational opportunities provided by the 
Project.
                              project area
    The Toledo Bend shoreline is approximately 1,200 miles in length--
longer than the entire west coast of the continental United States. In 
Texas, the shoreline offers numerous public recreation facilities, 
commercially owned marinas and other businesses, private docks and boat 
houses on lands leased to adjacent landowners, and undeveloped lands. 
It also includes approximately 4,000 acres of federal lands 
administered by the United States Forest Service as part of the Sabine 
National Forest, as well as the Indian Mounds Wilderness Area (IMWA). 
IMWA was congressionally designated in 1984--more than 20 years after 
the original Project licensing and 15 years after Project construction. 
No Project structures, facilities or works occupy lands within IMWA.
                     project purposes and benefits
    In addition to serving as a key source of water supply to meet the 
municipal, industrial, and irrigation water needs for both Texas and 
Louisiana, and providing low-cost, emissions-free renewable energy to 
ratepayers in Eastern Texas and Western Louisiana, the Project is a 
significant economic engine in the region, supporting jobs, tourism, 
and local businesses. Among the economic benefits made possible by the 
Project in Texas are numerous public recreation facilities and many 
private businesses dependent on recreation at Toledo Bend. We believe 
that in the coming years, as water shortages increase in parts of the 
United States and natural outdoor environments continue to confront 
development pressures, the Toledo Bend Project will become an 
increasingly valuable asset of the States of Texas and Louisiana.
                          relicensing process
    The Project operates under the license issued by the FPC in 1963, 
which expired at the end of September, 2013. The Authorities' 
application for a new license was filed in September 2011 and currently 
is pending at the FERC.
    The Authorities developed the license application through an 8-year 
process that included the development and filing of a notice of intent 
to apply for a new license and pre-application document, extensive 
environmental scoping and studies, and 5 years collaborating with all 
relevant federal and state agencies and the interested public both 
before and after the application for a new license was filed with the 
FERC.
    The relicensing process also involved a successful comprehensive 
settlement with federal and state resource agencies, reached after more 
than a year of intense settlement negotiations. The settlement sets 
forth mutually agreeable terms and conditions for the operation of the 
Project over the new license term, and includes measures that protect 
and enhance fish and aquatic resources, public recreation, water 
quality, and preserves the value of hydropower production and water 
supply.
    In addition, as part of the relicensing effort the Authorities have 
proposed to construct a new renewable generating facility in Louisiana 
to take advantage of water releases from the Project spillway, which is 
expected to produce approximately 11,600 megawatt hours of renewable 
energy--enough to power about 800 homes each year.
    This onerous relicensing process has come at considerable cost to 
the two Authorities, as follows:

  <bullet> The relicensing process costs (e.g., environmental and 
        engineering consultant fees, environmental studies, legal 
        expenses, document preparation, and other related expenses) 
        have totaled over $10 million since inception, and the 
        Authorities expect a total expenditure of over $11 million by 
        the time the license is issued later this year.
  <bullet> Capital costs associated with implementing new license 
        measures are estimated at $3.6 million (not including the 
        capital costs of the new small generating facility at the 
        spillway).
  <bullet> Annual costs associated with operation and maintenance of 
        new protection, mitigation, and enhancement measures set forth 
        in FERC's staff preferred alternative (which includes measures 
        in the relicensing settlement agreement) are estimated at $3.7 
        million.
  <bullet> In addition, the Authorities estimate that they lose $2.6 
        million in revenue each year as a result of enhancing 
        recreation at Toledo Bend Reservoir by restricting normal 
        hydropower production to periods when Toledo Bend Reservoir is 
        above 168 feet mean sea level (msl) (even though the Project 
        was designed to draw reservoir levels down to elevation 162 
        feet msl for power generation).

    Together, these costs will increase the Project's total operating 
costs by more than $7 million each year over a 50 year license term. 
For a Project with current operating costs of approximately $16.5 
million annually, these relicensing costs substantially increase the 
Project's total operating costs by nearly 44% annually, even if the 
FERC issues the statutory maximum new license term of 50 years. Of 
course, this increase would be even more substantial if the FERC issues 
a new license for less than 50 years.
                       land exchange legislation
    The Authorities very much need the enactment of S.1484, the Sabine 
National Forest Land Exchange Act of 2013, of which Chairman Landrieu 
is the lead sponsor. Senators David Vitter (R-LA) and John Cornyn (R-
TX) are also original sponsors of this legislation. This legislation 
would remove some aspects of federal oversight under the FPA that 
potentially could cripple the many benefits provided by the Project on 
a going-forward basis. Currently, the presence in the Project of 
approximately 4,000 acres of federal land administered by the U.S. 
Forest Service imposes a considerable regulatory and cost burden on the 
Authorities, both now and into the future. The legislation sponsored by 
Chairman Landrieu, Senator Vitter and Senator Cornyn would remove these 
challenges and ensure that the Project can continue to be a valuable 
asset of the people of Texas and Louisiana.
    The existence of Sabine National Forest lands within the Project 
gives ``mandatory conditioning authority'' to the U.S. Forest Service 
under section 4(e) of the FPA. This broad authority allows the U.S. 
Forest Service to impose upon the Authorities' FERC-issued license any 
conditions it believes would adequately protect and utilize Sabine 
National Forest. Because the U.S. Supreme Court has held that FERC has 
no authority to modify or reject these conditions, there is no 
guarantee that a future FERC-issued license will be balanced in the 
public interest for both developmental and non-developmental values, as 
required by the FPA. Given the unique structure of FPA section 4(e)--
where one agency can override the action agency's overall licensing 
authority--there is little opportunity in the relicensing process for 
the Authorities and other hydropower licensees to challenge the factual 
merits of the conditions.
    Fortunately, the Authorities were able to work closely with the 
U.S. Forest Service in the current relicensing process and resolve all 
their issues through a negotiated settlement of the FPA section 4(e) 
conditions that will apply to the new license. In a future licensing 
proceeding involving the Project, however, the Authorities should not 
be subjected to the risk that the U.S. Forest Service could impose 
onerous or crippling conditions to protect its narrow interests at the 
expense of the broader purposes of the Project.
    In addition, removal of Sabine National Forest lands from the 
Project, together with the assurance that other non-fee federal 
interests in Project lands would not trigger land use fees under FPA 
section 10(e), would remove the threat to the Authorities to pay 
extraordinary federal land use fees to FERC. According to an estimate 
by the Authorities, these FERC fees could be as high as $3 million 
annually, which would wreck the economics of the Project. The FERC is 
not collecting these fees from the Project for two reasons: (1) the 
FERC has found that Project power is provided to consumers without 
profit; and (2) the FERC has determined that it will not collect these 
fees at all from anyone right now, but has not rejected its authority 
to collect these fees. The potential liability of the Project for these 
fees is exacerbated because a prior land exchange in the 1980s retained 
the federal government's ``power site reservation'' on over 30,000 
acres of lands inundated by Toledo Bend Reservoir. This ``power site 
reservation'' is the alleged basis of this fee by the FERC. The 
Authorities are pleased about the refusal of the current FERC to 
collect these fees, but also are keenly aware that a future FERC could 
change this position and determine to collect these excessive and 
unjustified fees in the future. Because any further change in FERC 
policy could be devastating to the Project, we support a legislative 
solution that removes FERC's power to collect fees for any interest in 
federal land at the Project.
                  no additional relicensing processes
    Finally, we question why this Project should undergo another 
relicensing in 30 to 50 years. At that point, the Project will have 
been operating for 80 to 100 years, which provides ample time to fully 
understand and address environmental effects of its operations. The 
comprehensive, complex, costly and time consuming ``audit'' of the 
Project--which is what the re-licensing process is all about--against 
the full spectrum of environmental laws of the nation will be 
completely unnecessary. The Project has now been through an original 
licensing and, very recently, a relicensing. SRA-Texas has no objection 
to remaining under the jurisdiction of the FERC according to the terms 
of our settled license conditions, which will contain sufficient 
authority to reopen the license, where justified, to address any 
implementation issues that might arise at the Project.
    We view this entire costly application process for a new license in 
30 or 50 years to be an imposition of government expense of 
questionable value. This Project is an asset owned by the people of 
Texas and Louisiana, and it is the only FERC-licensed Project in the 
nation that is owned by two different states. This Project is not 
operated for profit, but for the benefit of the people of Texas and 
Louisiana. Therefore, we ask Chairman Landrieu to do all in your power 
to relieve this Project of incurring another major expense--which may 
be much greater in 30 or 50 years than our current relicensing--
occasioned by the requirement to seek a new license periodically.
                               conclusion
    Thank you, Madam Chairman, for your great interest in the success 
of the Toledo Bend Project and for this hearing that you are conducting 
on the Project. We appreciate your support and your leadership in 
Congress to address issues that will enable this important state asset 
to achieve its full potential as an electricity producer, a water 
supply facility and an engine of economic development for Eastern Texas 
and Western Louisiana.
                                 ______
                                 
                                               277 Hwy 118,
                                         Florien, LA, May 17, 2014.
Hon. Mary Landrieu,
Chairman, Senate Energy and Resources.
RE: Committee Hearing., Cypress Bend Complex, Toledo Lake

    Following are means that Federal Government can assist in increase 
of Economic benefits in area of Toledo Bend Lake and. Sabine River:

          While being blessed with a north/south 4-lane highway (U.S. 
        171) Shreveport To Lake Charles, Louisiana., most tourist from 
        South Louisiana arrive via I-40, taking 2-lane La. Hwy 6 to 
        Toledo Lake area. A bottle neck in town of Many Louisiana can 
        be eliminated with funding cost of $450,000. Federal Funding of 
        80% is needed to begin the DODT project.

    Funding for Sabine River Authority Louisiana to construct a water 
supply lift station in Desota Parish for water supply used for 
FRACTURING in the Haynesville oil fields situated in Northwestern 
Louisiana and East Texas and for other area water needs.
    Funding for a salt water barrier on Sabine River. Salt Water, 
currently, is only a short distance from the Louisiana Diversion Canal 
that supplies fresh water for all the commercial ventures in Calcasieu 
Parish area--providing TENS OF THOUSAND Jobs. None of the plants can 
operate with Salt Water. This salt water barrier is a must--now--and 
not later. Should the salt water move north a short distance (to the 
Diversion Canal intake station)--more than 30,000 jobs will be lost.
    These are only a few means in which federal Funding can and will 
impact economic cond. its in the Toledo BenD and Sabine River area.

                                            Bobby Williams,
   Member, Sabine River Authority, Louisiana, Sabine River Compact 
       Administration (La. & Texas), Sabine Parish Sales & Use Tax 
  Commission,El Camino East/W Corridor Commission (La. 6 U.S. 84), 
Western Corridor Commission (U.S. Hwy 171), West Louisiana Veterans 
                                                               Park

                                 <all>


</pre></body></html>
